I
\

IN THE
SUPREME COURT OF THE UNITED STATES

FILED
OCT 2 2 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

ALLEN SNYDER — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

ALLEN SNYDER
169143, WALNUT-4
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTION(S) PRESENTED
1.

In denying Snyder’s application for post conviction relief, the trial
court said Snyder was challenging his conviction and sentence for the
second degree murder of his wife; however, Snyder’s wife is not
deceased and neither is she the victim in this case. The lower courts
have overlooked and ignored this egregious error. Like the judge who
presided over the trial, could the jury have been confused about who
the actual victim was in this case?

2.

Snyder is not an experienced pro se litigant and has not had any legal
training. He received some assistance from the prison law library to
restructure his claims, making 2 instead of 10. The lower courts refused
to review Snyder’s ineffective-assistance-counsel claim, alleging it was
new; however, none of the claims were new and they are contained in
Snyder’s original post-conviction application. Did the lower courts err
in not reviewing the claim on its merits?

li

I

LIST OF PARTIES
[x]

All parties appear in the caption of the case on the cover page.

m

*

TABLE OF CONTENTS
PAGE NO.
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING AND STAYING THE WRIT

4

CONCLUSION

19
INDEX TO APPENDICES

Appendix

Page

A

Order Denying CO A

1

B

District Court’s Judgment

3

C

Magistrate Judge’s Report and Recommendation

19

D

State Supreme Court’s Denial of Post-Conviction Relief

45

E

State Appellate Court’s Denial of Post-Conviction Relief

47

F

Trial Court’s Denial of Post-Conviction Relief

49

G

State Supreme Court’s Denial of Certiorari on Direct Appeal

52

H

State Appellate Court’s Opinion on Direct Appeal

53

iv

•i

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Andrade v. Gonzalez, 459 F.3d 538, 543 (5th Cir. 2006)
Hill v. Johnson, 210 F.3d 481 (5th Cir. 2000).

11
8,9

Lane v. Brown, 372 U.S. 477, 83 S.Ct. 768 (1963)

10

Smith v. Bennett, 365 U.S. 708, 89 S.Ct. 895 (1969)

10

Snyder v. Louisiana, 552 U.S. 472, 128 S.Ct. 1203 (2008)

12

State ex rel. Bernard v. Orleans Criminal District Court Section J,
94-2247 (La. 4/28/95), 653 So.2d 1174......... ............................ ........

10

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984),
United States v. Yanez Sosa, 513 F.3d 194 (5th Cir.2008)

passim
8,9

STATUTES AND RULES
La. C. Cr. P. art. 582

12

La. C. Cr. P. art. 707

12

OTHER
Rule 10 of the LTnited States Supreme Court

v

8

■4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review
the judgment below.
OPINIONS BELOW
[x]

For cases from federal courts;
The opinion of the United States court of appeals appears at
Appendix A to the petition and is unpublished.
The opinion of the United States district court appears at Appendix
B to the petition and is reported at 2019 WL 1748665.

[x]

For cases from state courts;
The opinion of the highest state court to review the merits appears
at Appendix G to the petition and is reported at 2013-2647 (La.
4/25/14); 138 So.3d 643
The opinion of the Louisiana Fifth Circuit Court of Appeal appears
at Appendix H to the petition and is reported at 12-96 (La. App. 5
Cir. 10/9/13): 128 So.3d 370.

1

4

JURISDICTION
[x]

For cases from federal courts:
The date on which the United States Court of Appeals decided my
case was September 16, 2020.
[x]

No petition for rehearing was timely filed in my case.
The jurisdiction of this Court is invoked under 28 U.S.C. §

1254(1).

[x]

For cases from state courts;
The date on which the highest state court decided my case was
October 17, 2016.
A copy of that decision appears at Appendix D.
The jurisdiction of this Court is invoked under 28 U.S.C. §

1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United Sates Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury ... and to have the
assistance of counsel for his defence.
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part:
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Louisiana Constitution Article 1, § 2
No person shall be deprived of life, liberty, or property, except
by due process of law.
Louisiana Constitution Article 1, § 3
No person shall be denied the equal protection of the laws. No
law shall arbitrarily, capriciously, or unreasonably discriminate
against a person because of birth, age, sex, culture, physical
condition, or political ideas or affiliations.
Louisiana Constitution Article 1, § 13
When any person has been arrested or detained in connection
with the investigation or commission of any offense, he shall be
advised fully of ... his right to the assistance of counsel ... In a
criminal prosecution, an accused shall be informed of the nature
and cause of the accusation against him. At each stage of the
proceedings, every person is entitled to assistance of counsel of
his choice, or appointed by the court if he is indigent and
charged by an offense punishable by imprisonment.

3

La, C. Cr. P. art. 582
When a defendant obtains a new trial or there is mistrial, the
state must commence the second trial within one year from the
date the new trial is granted, or the mistrial is ordered, or within
the period established by Article 578, whichever is longer.
La. C.Cr.P art. 707.
A motion for a continuance shall be in writing and shall allege
specifically the grounds upon which it is based and, when made
by a defendant, must be verified by his affidavit or that of his
counsel. It shall be filed at least seven days prior to the
commencement of trial.
Upon written motion at any time and after contradictory hearing,
the court may grant a continuance, but only upon a showing that
such motion is in the interest of justice.

4

STATEMENT OF THE CASE
Snyder is an honorably discharged Marine and father of three. Although
he and his wife loved one another, there was infidelity from both of them in
their relationship; even so, Snyder did not want to give up on his marriage.
In 1994 Snyder was promoted to a supervisory position that required him to
work graveyard shifts. It was while he was away from home that his wife
(“Mary”) began seeing other men. Still Snyder tried to save his marriage. He
and Mary began to argue more frequently as a result of her infidelity. Mary
would attempt to hide her indiscretions by starting arguments under false
pretenses and retreat to her parents’s house where she would meet with other
men. At times, to make her lies more plausible, Mary would take the children
with her. When her mother began to ask her about her actions and why she
was out so late, Mary would go home to Snyder.
On August 15, 1995, Snyder and Mary talked on the phone and agreed
to reconcile. Mary assured Snyder she would be home with him the following
day; however, soon after getting off of the phone, Mary had a tryst with
Howard Wilson. Exhilarated about his wife and children returning home,
Snyder became anxious and paged Mary later on in the evening but she did
not respond. Worried and nervous, Snyder looking for his wife at the home

5

of one of her relatives at 1:00 a.m. No one answered the door of the home
hut, while he was still knocking, he saw a car parked in front of Mary’s
parents’s home. Snyder then went to see if his wife was in the car. What he
saw was enough to drive any reasonably minded person insane—his wife
kissing and groping another man, who was also groping her, just a few feet
from where their children lay sleeping. Caught up in the heat of passion,
Snyder was unable to rationally deal with what his mind was processing.
Without thought, Snj'der attempted to get his wife out of the car of another
man and from there, everything spiraled out of control.
Snyder’s recall of the incident is sketchy at best; however, he does
know a violent altercation ensued when he attempted to physically remove
Mary from Howard Wilson’s car. In the aftermath, Snyder realized he had
stabbed Wilson. He went home in a daze and overcome with depression.
Later that day, Snyder called the police and said he was considering suicide.
Officer Vic Giglio of the Kenner Police Department was dispatched to
Snyder’s home in response to his call. When officer Giglio realized Snyder
was wanted for questioning in the death of Howard Wilson, he detained him
for the Jefferson Parish Sheriffs Office (“JPSO”). Officer Giglio reported
that Snyder did not have any visible injuries.

6

Detective Debbie Labit of the JPSO arrived at Snyder’s home and
advised him of his Miranda rights. Detective Labit observed injuries to
Snyder’s right hand that appeared to be fresh. Detective Labit had Snyder
transported to the Detectives Bureau where she observed Snyder “talking
odd as if he had been in a war.” R. p. 692.
Detective Michael Cooke said he interviewed Gwen Williams.
According to his testimony, Williams supposedly witnessed Snyder stab
Wilson to death. However, Det. Cooke said Williams told him she never saw
Snyder with a knife. R. pp. 859-860.
Snyder launched an unsuccessful collateral attack against his conviction
and sentence in the state courts. Thereafter, he filed a timely petition for a
writ of habeas corpus in the Eastern District Court of Louisiana. On April
18, 2019, the district court adopted the Magistrate’s recommendation and
denied Snyder’s petition for a writ of habeas corpus with prejudice. On
September 16, 2020, the Fifth Circuit Court of Appeals denied Snyder’s
request for a Certificate of Appealability. This instant petition for writ of
certiorari timely follows.

7

REASONS FOR GRANTING THE WRIT
The Fifth Circuit Court of Appeals and the other lower courts have
committed clear error in denying Snyder habeas and post-conviction relief.
The trial court believed Snyder was seeking relief for the second degree
murder of his wife. Appendix F, p. 49. Snyder has asked each court, since the
denial of his application for post-conviction relief, to remand the matter back
to the trial court because his wife is not dead and he was not convicted of any
crimes allegedly perpetrated against her. The trial court’s belief that Snyder
killed his wife is proof of how the so-called evidence-of-other-crimes
negatively affected his trial and resulted in prejudice. The trial judge’s
confusion about the victim may also be a reflection of the jury’s confusion
of who the victim was. Snyder was re-indicted for second degree murder for
the death of Howard Wilson. Each reviewing court has thus far refused to
address the trial court’s incorrect assessment of the evidence and facts. Cf.
United States v. Yanez Sosa, 513 F.3d 194, 200 (5th Cir.2008); Hillv.
Johnson, 210 F.3d481, 485 (5th Cir. 2000); 28 U.S.C. § 2254(d)(2)(e)(l).
Mary Snyder is still alive and well—living proof the trial court’s ruling and
the jury’s verdict is not worthy of any confidence.

8

Snyder relied on his memory to file his original application for post­
conviction relief and, as a pro se litigant, was entitled to liberal construction
and he should have been granted a copy of the record to supplement and
clarify his claims.
A mere recounting of the facts from the appellate court by the district
court is not sufficient to cure the trial court’s error in a federal habeas
petition. The Judge who presided over the trial is the same Judge who
erroneously said Snyder was seeking post-conviction relief for the second
degree murder of his wife. If the Judge made a mistake of this magnitude,
not knowing who the victim is, what other mistake were made? The state
courts factual findings are not entitled to any presumption of correctness.
United States v. Yanez Sosa, supra; Hill v. Johnson, supra.
1.

Snyder’s case was adversely affected as a result of ineffective
assistance of trial counsel.
The district court contends that a jury consisting of nine females and

three males, along with two females chosen as alternate jurors does not mean
that a prima facie case of gender discrimination can be made. Appendix B,
p. 10. On the contrary, it appears that, even without the record, Snyder has
stated with reasonable specificity that his trial was infected with a severe
case of gender bias, thus rendering his trial fundamentally unfair. The number
9

of peremptory challenges the State used is irrelevant. Especially where the
State wanted as many women as possible to sit on the jury knowing it intended
to portray Snyder as a jealous and abusive husband. Again, the State’s strategy
so affected the trial the judge thought Snyder actually killed his wife and not
Howard Wilson. Appendix F, p. 49. The district court said Snyder’s claim was
conelusory; however, he specifically stated his need for a copy of the record.
The district court could have remanded Snyder’s case for him to be given a
copy of the record and time to perfect his claims. Lane v. Brown, 372 U.S.
477, 83 S.Ct. 768, 9 L.Ed.2d 892 (1963); Smith v, Bennett, 365 U.S. 708, 89
S.Ct. 895, 6 L.Ed.2d 39 (1969); State ex ret Bernard v. Orleans Criminal
District Court Section J, 94-2247 (La. 4/28/95); 653 So.2d 1174.
The lower courts do not believe Snyder’s counsel was ineffective when
he failed to challenge the State use of alleged evidence other crimes against
him; however, after Snyder presented this colorable claim, he should have
been entitled to liberal construction and granted a copy of the record. The
lower courts did not take notice of the trial court’s assertion that Snyder is an
experienced pro se litigant. Appendix F, p. 51. However, even if the trial
court’s assertion was true, Snyder is not an attorney and he should not be held

10

w*

to the same stringent standards attorney’s are held to. Andrade v. Gonzalez,
459 F.3d 538, 543 (5th Cir. 2006).
The lower courts believe Snyder’s trial counsel’s cross-examination of
Mary was not deficient and that Snyder failed to carry his burden concerning
this claim. Without the record to point to specific instances, Snyder could only
generally state some of the deficiencies in his counsel’s questioning of Mary.
The lower courts also believe Snyder was not denied his right to
confront Gwendolyn Williams because his “trial counsel vigorously opposed
the state’s request to use” her testimony from the first trial. Appendix C, p.
35. Williams’s testimony should not have been read to the jury at the second
trial and Snyder’s counsel was ineffective for his inability to produce
jurisprudence to show how the State was precluded from using Williams’s
prior testimony because Snyder trial counsel at his first trial failed to crossexamine Williams. Again, without the record, Snyder did a good job of
stating why he needed a copy of the record to support his claims.
The district court misconstrued Snyder’s claim that his trial counsel was
ineffective for requesting unnecessary and oral continuances. Not only did
counsel fail to write the reason for the requested continuance as required by
law, it was a violation of due process and equal protection when he did not.

11

wf‘

La. C. Cr. P. art. 707; U.S. Const, art. XIV. Clearly, Snyder’s case was not
benefited from the granting of any continuance, especially where the State had
a limited time in which to retry Snyder for the death of Howard Wilson.
On April 30, 2008, the Louisiana Supreme Court remanded Snyder’s
case for a new trial after this honorable Court instructed that court to do so.
Snyder v. Louisiana, 552 U.S. 472, 486, 128 S.Ct. 1203, 1212, 170 L.Ed.2d
175 (2008). La. C. Cr. P. art. 582, backed by due process and equal protection
requirements, compels the State to retry a remanded case in 1-year. The
district court noted that the trial court appointed the Louisiana Capital
Defense Project to represent Snyder and said the indictment was amended to
“the lesser offense of second degree murder.” Appendix C, p. 36. However,
Snyder was re-indicted by a Jefferson Parish grand jury January 29, 2009.
Appendix C, p. 40 (internal citation omitted).
The lower courts failed to deal with the prejudice Snyder suffered at the
hands of the trial court and the State. His case was remanded on April 30, 2008,
and under Louisiana law, the State had 1-year to retry him. On December 1,
2008, the trial court appointed capital attorney’s to represent Snyder at his
February 17, 2009, trial. On January 23, 2009, one of the capital defense
attorney’s withdrew from the case because Snyder was no longer charged

12

4

with a capital offense. Snyder was never without representation during this
time period; however, on the day of trial, second attorney “enrolled [to
represent Snyder] and requested a continuance.” Appendix C, p. 40. Snyder
was prejudiced by that counsel’s oral and non-specific request for a
continuance. This claim, liberally construed like the others, was sufficient
for Snyder to be granted a copy of the record to perfect his claim.
2.

Snyder’s direct appeal was adversely affected as a result of his
appellate counsel’s deficient performance.
The lower courts agreed the claims raised by Snyder’s appellate

counsel were unsuccessful, but believes Snyder’s pro se claims were barely
stronger. Appendix C, p. 30. Snyder disagrees. The situation leading to 2
oral motions for continuances by a counsel who was appointed to represent
Snyder on the day of trial, a period of almost a month had passed when
former counsel withdrew representation, is suspect.
The district court said Snyder has failed “to establish how the claim
that trial counsel was ineffective for requesting continuances is stronger
than those actually presented on appeal.” Appendix B, pp. 15-16. Yet, the
lower courts failed to consider that Snyder, despite setting forth his claims
with reasonable specificity, was not granted any documents to support his
claims.
13

<*•

i

CONCLUSION
For the foregoing reasons Snyder’s petition for a writ of certiorari
should be granted.
Respectfully submitted,

Allen Snarer

lS-/~

Date: October 21, 2020

14

